TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Actions Can Be Taken to Reinforce the
                 Importance of Recognizing and Investigating
                    Fraud Indicators During Office Audits



                                          March 13, 2013

                              Reference Number: 2013-30-020




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


ACTIONS CAN BE TAKEN TO                               TIGTA estimates that additional assessments
REINFORCE THE IMPORTANCE OF                           totaling approximately $5.8 million in civil fraud
RECOGNIZING AND INVESTIGATING                         penalties may have been avoided by taxpayers.
FRAUD INDICATORS DURING OFFICE                        TIGTA’s evaluation indicates that a combination
AUDITS                                                of factors caused the quality problems and that
                                                      actions can be taken at the examiner and
                                                      first-line manager levels to better ensure that
Highlights                                            fraud indicators are recognized and properly
                                                      investigated.
Final Report issued on March 13, 2013
                                                      WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2013-30-020           TIGTA recommended that the Director, Exam
to the Internal Revenue Service Commissioner          Policy, Small Business/Self-Employed Division:
for the Small Business/Self-Employed Division.        1) standardize the process for office audit
                                                      examiners’ documentation of fraud consideration
IMPACT ON TAXPAYERS
                                                      by developing and implementing a specific job
Penalties, such as for civil fraud, are designed to   aid that requires examiners to acknowledge
promote voluntary compliance by imposing an           which indicators, if any, were considered during
economic cost on taxpayers who choose not to          the audit and 2) develop additional criteria and
comply with the tax law. Because indicators of        guidance for when a discussion should be held
fraud are not always recognized and properly          between the examiner and first-line manager
investigated, the IRS may be missing                  about the potential fraudulent activity of the
opportunities to further promote voluntary            taxpayer to cover instances other than
compliance and enhance revenue for the                omissions of income.
Department of the Treasury.
                                                      IRS management partially agreed with both
WHY TIGTA DID THE AUDIT                               recommendations. For the first
                                                      recommendation, the IRS plans to review
This audit was initiated to determine whether         existing guidelines and make revisions to
fraud is recognized and pursued during office         standardize the process for documenting the
audits of individual tax returns in accordance        consideration of fraud. TIGTA believes this
with IRS procedures and guidelines. The review        planned corrective action is responsive to the
is part of our Fiscal Year 2013 Annual Audit Plan     recommendation.
and addresses the major management
challenge of Tax Compliance Initiatives.              For the second recommendation, the IRS plans
                                                      to provide a guidance memorandum to
WHAT TIGTA FOUND                                      emphasize when a discussion should be held
                                                      between the examiner and first-line manager
TIGTA reviewed a statistical sample of
                                                      about potential fraudulent activity. However, it
100 office audits, closed between October 2009
                                                      did not agree to provide additional criteria
and September 2010, that involved high-income
                                                      related to overstated deductions. As such, it is
and sole proprietor taxpayers agreeing they
                                                      unlikely that the corrective action will be
owed additional taxes of at least $10,000. The
                                                      effective. Overstated deductions can be just as
review identified 26 audits with fraud indicators
                                                      egregious as omissions of income and result in
that were not recognized and investigated in
                                                      the same tax loss to the Government.
accordance with some key IRS procedures and
                                                      Moreover, the IRS agreed that the
guidelines. When the sample results are
                                                      recommendations have the potential to increase
projected to the population of 3,674 closed office
                                                      revenue by $29 million over five years.
audits meeting the above characteristics, TIGTA
                                                      Therefore, TIGTA continues to believe the IRS
estimates that fraud indicators were not
                                                      should expand the requirement for examiners
recognized and investigated in approximately
                                                      and first-line managers to discuss potential
939 office audits during Fiscal Year 2010.
                                                      fraudulent behavior beyond unreported income.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 13, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Can Be Taken to Reinforce the
                             Importance of Recognizing and Investigating Fraud Indicators During
                             Office Audits (Audit # 201130022)

 This report presents the results of our review to determine whether fraud is recognized and
 pursued during office audits of individual tax returns in accordance with Internal Revenue
 Service (IRS) procedures and guidelines. The review is part of our Fiscal Year 2013 Annual
 Audit Plan and addresses the major management challenge area of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Carl Aley, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                                        Actions Can Be Taken to Reinforce the
                                      Importance of Recognizing and Investigating
                                         Fraud Indicators During Office Audits




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Numerous Management Controls Have Been Developed
          to Help Ensure That Fraud Is Emphasized and Considered
          During Audits................................................................................................ Page 3
          Opportunities May Have Been Missed to Enhance the
          Contribution Fraud Penalties Make to Compliance ...................................... Page 6
                    Recommendations 1: ...................................................... Page 11

                    Recommendation 2:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Fraud Checklist (2010) ......................................................... Page 24
          Appendix VI – Fraud Development Lead Sheet ........................................... Page 29
          Appendix VII – Glossary of Terms .............................................................. Page 31
          Appendix VIII – Management’s Response to the Draft Report ................... Page 33
          Actions Can Be Taken to Reinforce the
        Importance of Recognizing and Investigating
           Fraud Indicators During Office Audits




              Abbreviations

BSA     Bank Secrecy Act
FTA     Fraud Technical Advisor
FY      Fiscal Year
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
NQRS    National Quality Review System
SB/SE   Small Business/Self-Employed
TIGTA   Treasury Inspector General for Tax Administration
                                  Actions Can Be Taken to Reinforce the
                                Importance of Recognizing and Investigating
                                   Fraud Indicators During Office Audits




                                           Background

Tax fraud is a deliberate and purposeful violation of Internal Revenue laws by those who do not
file and properly report their income and expenses. Tax fraud requires both an underpayment
and fraudulent intent, and it can be considered one of the most egregious forms of
noncompliance.
According to the Internal Revenue Manual (IRM), the discovery and development of fraud is the
result of effective investigative techniques. The investigative techniques employed by examiners
are designed to disclose not only errors in accounting and application of tax law but also
irregularities that indicate the possibility of fraud. At a minimum, the IRM indicates that
examiners should exercise sound judgment and follow up on all fraud indicators by performing
necessary investigative techniques, such as interviewing the taxpayer or substantiating
information obtained from the taxpayer with third parties. The IRM emphasizes that fraud will
not ordinarily be discovered when examiners readily accept the completeness and accuracy of
the records presented and the explanation offered by the taxpayer. It is necessary for examiners
to explore records and to probe beneath the surface to validate information provided and
statements made in order to evaluate the credibility of evidence and testimony provided by the
taxpayer.
During audits, Internal Revenue Service (IRS) examiners are largely focused on determining
whether the correct tax liability has been reported. However, if an examiner suspects there are
indications that a taxpayer may have committed tax fraud,1 the examiner should first discuss the
audit with their first-line manager.2 If the first-line manager determines that there are indicators
of fraud warranting development, then he/she would advise the examiner to contact an IRS Fraud
Technical Advisor (FTA)3 to help determine whether to pursue imposing a civil fraud penalty or
whether the audit file should be referred to IRS Criminal Investigation for possible criminal
prosecution. If imposed, the civil fraud penalty is equal to 75 percent of the tax owed that is
attributable to fraud, plus interest on the penalty amount. Although civil and criminal tax fraud
involves significant dollars in penalties and fines annually, criminal tax fraud is considerably
more serious because it can involve prosecution costs and jail time.
To pursue the civil fraud penalty, Small Business/Self-Employed (SB/SE) Division office
examiners need to coordinate with their first-line managers and FTAs to complete a Form 11661,
Fraud Development Recommendation – Examination. Form 11661 is used to document the


1
  Tax fraud consists of both civil and criminal tax fraud.
2
  See Appendix VII for a glossary of terms.
3
  The FTA serves as a resource person and liaison to compliance employees in all IRS operating divisions. The FTA
is available to assist in fraud investigations and offer advice on matters concerning tax fraud.
                                                                                                         Page 1
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



FTA’s involvement and place an audit in fraud development status. Once an office audit is
placed in fraud development status, a plan of action is usually developed jointly with the
examiner, first-line manager, and FTA to establish affirmative acts (proof) of fraud and guide the
investigation to its appropriate conclusion in a timely manner. Although the investigation plan
of action is jointly developed, the ultimate decision to both further investigate suspected
fraudulent behavior and seek the assistance of an FTA rests with the experience and judgment of
each of the many first-line managers. For Fiscal Years (FY) 2008 through 2011, SB/SE Office
Examination placed, on average, 172 audits into fraud development status (Forms 11661 were
completed) out of the approximately 127,100 office audits closed each year. Of the 172 audits
placed into fraud development status, SB/SE Office Examination recommended that 964 audits
result in taxpayers being assessed a civil fraud penalty.
This review was performed at the SB/SE Division Examination function in New Carrollton,
Maryland, and the IRS National Headquarters in Washington, D.C., during the period July 2011
through July 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
  The Fraud/Bank Secrecy Act function provided data from the National Fraud Program database system, from
which we determined the average number of taxpayer accounts placed into fraud development status and the number
of times that one or more civil fraud penalties were recommended. Subsequent to our closing meetings, the SB/SE
Division Examination function provided an analysis performed by the Office of Servicewide Penalties of data from
the Enforcement Revenue Information System, which showed that, on average, 123 civil fraud penalties were
assessed annually during FYs 2008 through 2011. Given the receipt date of this assessment information, we did not
attempt to validate the number of civil fraud penalties assessed. According to IRS officials, the reason for the
difference between the number of civil fraud penalties recommended and assessed is due to the Fraud/BSA and the
Office of Servicewide Penalties’ tracking methods. For example, a taxpayer could be assessed more than one civil
fraud penalty if fraud is identified on more than one return during a multiple tax period examination. Regardless of
the number of civil fraud penalties recommended for the taxpayer with an account placed into fraud development
status, Fraud/BSA would record one recommendation per taxpayer, whereas the Office of Servicewide Penalties
would record the total number of penalties assessed.
                                                                                                            Page 2
                               Actions Can Be Taken to Reinforce the
                             Importance of Recognizing and Investigating
                                Fraud Indicators During Office Audits




                                 Results of Review

The Treasury Inspector General for Tax Administration (TIGTA) reviewed a statistical sample of
100 closed office audits of high-income and sole proprietor taxpayers with additional agreed tax
assessments of $10,000 or more. This review found 26 audits with fraud indicators that were not
recognized and investigated in accordance with some key IRS procedures and guidelines. As a
result, opportunities may have been missed to further promote voluntary compliance and
enhance revenue for the Department of the Treasury. The TIGTA’s evaluation indicates that a
combination of factors caused the quality problems and that actions can be taken at the examiner
and first-line manager levels to better ensure that fraud indicators are recognized and properly
investigated.

Numerous Management Controls Have Been Developed to Help
Ensure That Fraud Is Emphasized and Considered During Audits
The IRS relies on its examiners and their first-line managers to ensure that the civil fraud penalty
is adequately considered. To assist examiners and first-line managers in meeting this
responsibility, the IRS has developed and implemented a number of policies, procedures, and
techniques (management controls). At the agency level, broad policy statements provide
guidance nationwide to IRS personnel. Of the 184 IRS Policy Statements, 36 cover examination
issues, such as taxpayer rights and examiner responsibilities.
At the divisional level, the quality measurement staff in the SB/SE Division reviews a
statistically valid sample of examination audits to assess the degree to which SB/SE Division
examiners pursued and developed fraud indicators. In addition to reviews by the SB/SE Division
quality measurement staff, SB/SE Division mid-level managers may evaluate ongoing work
during operational reviews. Operational reviews are required to be performed at least annually
to ensure that work is being done effectively. These processes serve as a quality control by
identifying managerial, technical, and procedural problems and providing a basis for corrective
actions.
At the first-line manager level, the performance management system requires that, at the
beginning of each fiscal year, first-line managers coordinate with their respective territory
managers to set forth commitments in their individual performance plans. The commitments are
intended to provide the basis for linking the first-line managers’ critical job responsibilities with
the IRS’s balanced measures and strategic goals and holding them accountable for their
individual and team performances. To realize these benefits, the commitments are to be related



                                                                                              Page 3
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



to at least one critical job responsibility. They should also, according to the IRS,5 specifically
describe the actions to be taken, include a deadline, indicate an expected result, and include some
means of verifying whether the commitment was met. Our review of the FY 2009 through
December 2011 performance agreements for a judgmental sample6 of 20 first-line managers
found that all 20 managers received clear and specific commitments related to fraud
consideration. We found, for example, commitments that stated:
       I will improve the quality, effectiveness and efficiency of income probes and fraud
        development. I will deliver tools and training to examiners supporting income
        examination techniques. I will consult with the National Fraud Program on a
        quarterly basis to review fraud performance, identify best practices and collaborate
        on potential areas of improvement. I will create an environment conducive to
        recognition of fraud indicators and development of cases that meet the quality
        attributes. Measure: Success will be measured by supporting an improvement in
        overall Area case quality scores; and delivering improvement in National Quality
        Attribute 300 (Income Determination) by providing tools and training through
        Income Determination Workshops and discussions at the group level.
       I will support the development of quality fraud referrals by coordinating with the
        FTA, communicating effective audit techniques to my employees, and by conducting
        timely, productive four-way meetings with the IRS’s Criminal Investigations Division.
        I will conduct a fraud awareness group meeting jointly with the National Fraud
        Program by June 30, 2010. Through managerial engagement in case activities, I will
        ensure correct and timely actions are taken in cases with indicators of fraud, as
        required by the Embedded Quality attributes. Success will be measured based on
        timeliness in conducting a fraud awareness group meeting, timeliness in conducting
        four-way conferences and documentation of managerial engagement activities.
As noted in the examples above, managers were required to complete certain actions related to
fraud within a specific time period. We believe that territory managers should be able to use
these types of commitments to hold first-line managers responsible for meeting expectations,
including fraud consideration.
At the group level, first-line managers are also an important control component because they are
responsible for the quality of work performed by the examiners they supervise. A variety of
techniques are used to ensure that examiners follow applicable standards and procedures when
they identify fraud indicators. These techniques include performance observations, discussions
with examiners, and reviews of audit file documentation during audits and after they are closed.
Through these observations, discussions, and reviews, first-line managers attempt to identify

5
  See, for example, the IRS Human Capital Office guide entitled, Writing Performance Commitments “A Reference
Guide for Managers and Management Officials” (Oct. 2011).
6
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                            Page 4
                                Actions Can Be Taken to Reinforce the
                              Importance of Recognizing and Investigating
                                 Fraud Indicators During Office Audits



problems so examiners can take prompt corrective actions. Our review of the FY 2009 through
December 2011 performance appraisals and the Embedded Quality Review System for a
judgmental sample of 20 examiners found that 19 of the 20 examiners received feedback related
to fraud consideration.
The IRM is another important control component because it contains the official compilation of
detailed instructions and explanations of fraud consideration for examiners to follow during
audits. Throughout the IRM, examiners are instructed to properly document, in audit case files,
all aspects of their work during the planning, initiating, conducting, and closing phases of audits.
Audit case file documentation is important because it provides the principal evidence that
procedures were followed as well as the foundation for other control processes such as
managerial reviews and the quality measurement reviews. The importance of examiner
documentation is further emphasized in management directives, examiner training materials, and
the quality measurement standards.
In addition to the above controls, SB/SE Division management has continued to implement
various approaches to emphasize the expectation that examiners identify, pursue, and develop
fraud indicators. Specifically, following TIGTA reports issued in FY 20077 and FY 2012,8 the
Examination and Fraud/Bank Secrecy Act (BSA) functions took or plan to take the following
actions:
       Issued a December 2007 memorandum to examiners reinforcing managerial and FTA
        involvement and the documentation of actions in the development of fraud cases.
       Implemented a case management tool that assists the FTAs in tracking the cases referred
        by examiners for further fraud development. This tool also facilitates cases to be
        reconciled to the Fraud/BSA function’s internal database and allows management to
        monitor FTA staffing needs.
       Highlighted the importance of the required discussion with the first-line manager to
        consider the potential for fraudulent activity when the examiner identifies an
        understatement of taxable income9 greater than $10,000 (a fraud indicator) in the
        August 2010 issue of Fraud Digest, a quarterly publication by SB/SE Division’s
        Technical Services.
       Developed a checklist10 that lists the fraud indicators and fraud penalty considerations.
        The checklist is an optional tool that may be used by examiners during audits.


7
  TIGTA, Ref. No. 2007-30-179, Management Has Emphasized the Fraud Program, but Opportunities Exist to
Further Improve It (Sept. 2007).
8
  TIGTA, Ref. No. 2012-30-030, Actions Can Be Taken to Reinforce the Importance of Recognizing and
Investigating Fraud Indicators During Field Audits (Mar. 2012).
9
  Taxable income is all income received minus allowable IRS deductions.
10
   See Appendix V for an example of the Fraud Checklist.
                                                                                                   Page 5
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



          Provided examples of case studies illustrating proper development of fraud indicators for
           consideration of the civil fraud penalty in each quarterly issue of the Fraud Digest since
           November 2007.
          Enhanced the Fraud Development Lead Sheet 11 in March 2011 to include IRM references
           and guidelines related to fraud development and the indicators of fraud.
          Developed and implemented additional fraud training during FY 2012 that provided
           examiners with tips on effective interviewing techniques as well as stressed the
           importance of expanding audits to include prior and subsequent tax returns when similar
           tax issues exist.
          Provided guidance to first-line managers during FY 2012 to improve the effectiveness
           and quality of performance feedback given to examiners as it related to the expansion of
           audits.
          By April 2013, issue a joint memorandum from the Directors of Examination Policy and
           Fraud/BSA to all Examination compliance employees highlighting fraud awareness
           expectations, responsibilities, and proper involvement of FTAs.
Although there are layers of management controls in place to guide examiners through the
consideration of fraud, our results indicate that additional steps are needed to ensure that
potential fraud is adequately considered and investigated during office audits.

Opportunities May Have Been Missed to Enhance the Contribution
Fraud Penalties Make to Compliance
As noted earlier, IRS records show that the civil fraud penalty is rarely recommended for office
audits. Specifically, during FYs 2008 through 2011, SB/SE Division office examiners
recommended, on average, that 96 taxpayers be assessed a civil fraud penalty out of the
approximately 127,100 office audits closed each year. According to the IRS, penalties, such as
for civil fraud, promote voluntary compliance by imposing an economic cost on taxpayers who
choose not to comply with the tax law. Consequently, when penalties are not properly
considered and assessed, opportunities can be missed to provide economic disincentives for
noncompliance, promote future compliance, and enhance revenue for the Department of the
Treasury.
We evaluated a statistical sample of 100 office audits of high-income and sole proprietor
taxpayers with additional agreed tax assessments of $10,000 or more that were closed between




11
     See Appendix VI for the Fraud Development Lead Sheet.
                                                                                               Page 6
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



October 2009 and September 2010. This review identified 26 (26 percent)12 office audits for
which fraud indicators were not recognized and investigated in accordance with IRS procedures
and guidelines. For example, in 14 of the 26 office audits, the audit case files lacked adequate
documentation to support that the taxpayers were questioned as to the reasons why income was
understated and/or deductions were overstated. ****************1**********************
****************************************1***********************************
********1*******. In addition, we found no evidence that the taxpayers involved in all 14 of
these audits were questioned about the overstated deductions, which ranged from approximately
$35,000 to $288,000.13 Furthermore, according to the information included in the audit case files
in 10 of the 26 office audits, third parties were not contacted to validate taxpayers’ assertions
about who was responsible for omitting income and/or overstating deductions. We found several
instances, for example, where the taxpayers stated that return preparers caused the errors.
However, we found no evidence indicating that the return preparers were contacted by the
examiners to confirm the taxpayers’ statements. We also found that in four of the 26 audits, the
audits were not expanded to include the taxpayers’ subsequent year returns despite the fact that
similar tax issues existed on those returns. According to Fraud/BSA officials, a multiyear pattern
of noncompliance is a strong indicator of potential fraud.

There was no evidence of FTA involvement despite the presence of fraud
indicators
Although the behaviors included large amounts of understated income, substantial overstatement
of business expenses, and failure to keep adequate books and records, we found no evidence of
FTA involvement in any of the 26 office audits, even though all had at least two fraud indicators
and resulted in an additional tax assessment of at least $10,000. The IRM specifies that when
there are fraud indicators to investigate, a discussion should be initiated with the first-line
manager. If the first-line manager concurs that there are indicators of fraud warranting fraud
development, the examiner should contact an FTA to help evaluate the risk posed and, if
warranted, develop an investigative action plan. The FTAs are generally selected from the ranks
of experienced IRS examiners, and the IRS considers the FTAs subject matter experts because
they are specifically trained to assist other examiners on the complexities of applying laws,
regulations, and procedures governing the development of criminal and civil tax fraud cases.
The first-line manager is the primary control to ensure FTA involvement in an audit when fraud
indicators are detected. However, neither the IRM nor supplemental IRS guidance provides
specific criteria or examples where first-line managers are strongly encouraged to involve an
FTA in an office audit. Instead, the ultimate decision to both further investigate suspected


12
   Amount is rounded to the nearest percent and represents the weighted average exception rate of 25.55 percent
with a 95 percent confidence level (±8.87 percent precision). See Appendix IV for the calculation.
13
   For these 14 audits, the total overstated deductions which the taxpayers were not questioned about amounted to
nearly $1.4 million.
                                                                                                            Page 7
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



fraudulent behavior and seek the assistance of an FTA rests with the experience and judgment of
each of the many first-line managers. As a result, the technical and procedural expertise the
FTAs possess is not always taken advantage of when warranted.
In response to TIGTA’s FY 2012 report that addressed fraud consideration during field audits,
the IRS agreed to issue a memorandum to all Examination function compliance employees
emphasizing the importance of involving an FTA in audits when there are indicators of fraud,
along with highlighting fraud awareness expectations and responsibilities and proper
involvement of FTAs. Although the IRS’s planned alternative corrective action is responsive to
recommendations in the report, we continue to believe it will be important for the IRS to go
beyond merely reiterating existing IRM procedures in their memorandum and provide additional
instructions and guidance that clarify when the assistance of an FTA should be sought in an audit
rather than leaving the decision largely to the experience and judgment of the first-line manager.
Such clarification is important given the compliance implications and the potential revenue at
stake.
The IRS agreed with our conclusions that fraud was not adequately considered and investigated
in all 26 of our exception audits. When the sample results are projected to the population of
3,674 closed office audits, we estimate that fraud indicators were not recognized and investigated
in approximately 939 office audits during FY 2010. The projection is based on a 95 percent
confidence level. We expect the number of office audits where fraud was not adequately
considered to fall between 613 and 1,265. We estimate that additional assessments totaling
approximately $5.8 million14 in civil fraud penalties may have been avoided by taxpayers.

IRS quality reviews have also identified problems with fraud consideration
Recent reports issued by the SB/SE Division’s National Quality Review System (NQRS) staff
have also noted problems with the quality of fraud consideration performed by examiners. For
example, for FY 2011, the NQRS staff reported that examiners did not meet the standard for
determining if fraud indicators were pursued and developed in 50 percent of the office audits
reviewed for which fraud consideration was applicable. The primary issue that the NQRS staff
identified was that the required manager discussion was not held when the examiner identified an
understatement of income greater than $10,000.15 Additionally, in a small percentage of office
audits, the NQRS staff found other issues, such as a failure to consider potential fraud as a result


14
   Our calculation assumes that the civil fraud penalty could have been assessed on 56 percent of the audits that we
determined were exceptions and is based on our analysis of readily available IRS data. We are unable to quantify
the degree of uncertainty associated with the estimated $5.8 million in additional assessments because of the
variability in the dollars assessed for the population of exception audits and the uncertainty as to which of the
individual exception audits could have resulted in a civil fraud penalty assessment. See Appendix IV for more
details.
15
   The IRS methodology used income instead of taxable income in determining when first-line manager involvement
would be appropriate. Taxable income factors both income and any IRS deductions.
                                                                                                            Page 8
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



of overstated expenses and a failure to document the content of a first-line manager discussion
and resulting decision to not pursue fraud when fraud should have been pursued.
Although we did not audit the accuracy of results reported by the SB/SE Division’s quality
measurement staff, one reason that could account for the difference between our results
(26 percent) and those reported by the SB/SE Division’s quality measurement staff (50 percent)
was the methodology used to evaluate the office audits. For example, the SB/SE Division’s
methodology considers an audit an exception if there is an understatement of income greater than
$10,000 and the examiner did not discuss the understated income with the first-line manager.
For our review, we considered whether investigative techniques were properly performed given
the fraud indicators present in the audit case file. Therefore, our methodology would not take
exception with an audit when the investigative techniques were properly performed even when a
discussion with the first-line manager had not occurred.
To address the concerns identified by the NQRS staff for FY 2011, the SB/SE Division
Examination function reemphasized the importance of fraud consideration to examiners and their
managers using the Division’s Technical Digest newsletter. The SB/SE Division Examination
function also placed an emphasis upon improving overall quality performance with Area
Directors’ commitments linked to quality performance. For the third quarter of FY 2012, the
NQRS staff reported that examiners continued to not meet the standard relating to pursuing and
developing fraud indicators in 37 percent of the office audits reviewed for which fraud
consideration was applicable. The fact that NQRS results show that about one out of every three
audits in which fraud consideration was applicable is not meeting standards for considering fraud
suggests there may be room to better ensure that fraud indicators are recognized and properly
investigated.

Audit case files showed that fraud indicators were not always recognized
Among the initial steps examiners need to take when investigating taxpayers that may be
involved in fraudulent activities is to recognize and document audit case files with indicators of
such behavior. To assist examiners with recognizing fraudulent behavior, the IRM lists the
following six categories of fraud indicators: income, expenses or deductions, books and records,
conduct of taxpayer, methods of concealment, and income allocation. Each category, in turn,
contains specific examples of supporting behavior that range from omitting income, substantially
overstating expenses, failing to keep adequate records to attempt to hinder the audit, making
false statements, and failing to disclose relevant facts to an accountant.16
Office audit examiners have several tools available to assist them with fraud consideration, such
as the Fraud Checklist that lists the IRM fraud indicators and fraud penalty considerations and
the Fraud Development Lead Sheet, which contains specific directions to follow in considering,

16
  These categories are not all inclusive and only indicate the types of actions taxpayers may take to deceive or
defraud.
                                                                                                              Page 9
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



developing, and pursuing a civil fraud penalty or, if warranted, a referral to IRS’s Criminal
Investigation. However, office audit examiners are not required to use the Fraud Checklist or
Fraud Development Lead Sheet. Instead, IRS officials stated that although office audit
examiners are required to document the consideration of fraud along with identifying fraud
indicators, the decision of where to include such documentation in case files is left up to the
discretion of each examiner.17 Our review of the information included in the audit case files
found that not all fraud indicators were recognized and documented in the 26 audit case files
where we determined fraud was not adequately considered. Our analysis of these conditions,
along with a prior audit’s results,18 indicate that it would be beneficial to designate a specific job
aid, such as one similar to the Fraud Development Lead Sheet used by field audit examiners, to
be completed and included in office audit examiners’ audit case files. The job aid could list
fraud indicators and require examiners to acknowledge which indicators, if any, were considered
during the audit. Standardizing the process and providing guidance on the form would likely
involve minimal costs since a similar job aid already exists and the fraud indicators have already
been identified and are listed in the IRM and on the optional Fraud Checklist. If well-designed,
the job aid could provide an effective tool to reinforce the importance of examiners ensuring that
fraud indicators are recognized, investigated, and documented during audits. The job aid could
also help facilitate managerial reviews after examiners submit the audit case file for closing
actions and be used in third-party reviews, such as NQRS reviews, as a quality control and
measurement instrument.

The first-line managers could have a greater role in the decision process to
investigate fraud indicators
At the time the examiners completed the audits in our sample, the IRM required that examiners
discuss the audit with their first-line manager when there was an understatement of taxable
income greater than $10,000 so important decisions could be made about whether the audit
scope, depth, or techniques should be changed to investigate the potential for fraudulent activity.
In all 26 office audits where fraud was not adequately considered, we found evidence in the audit
file of first-line manager involvement; however, we did not find adequate documentation in the
audit case files to indicate that a discussion was held about the potential fraudulent activity of the
taxpayer.
During discussions with IRS officials, we learned that the IRM requirement was later revised19 in
May 2011 to indicate that the first-line manager discussion requirement only applied when there
was an understatement of income greater than $10,000. As a result, examiners are no longer


17
   There is no standardized process for documenting fraud consideration; however, there are several places where the
examiner could document fraud consideration such as on the activity record in the case file.
18
   TIGTA, Ref. No. 2012-30-030, Actions Can Be Taken to Reinforce the Importance of Recognizing and
Investigating Fraud Indicators During Field Audits (Mar. 2012).
19
   According to the IRS, the May 2011 revision is a correction to the prior version of the IRM.
                                                                                                          Page 10
                                    Actions Can Be Taken to Reinforce the
                                  Importance of Recognizing and Investigating
                                     Fraud Indicators During Office Audits



required to have a discussion with their first-line manager regarding fraud consideration for
understatements of taxable income greater than $10,000 resulting from only overstated
deductions. Although we agree that understatements of income by more than $10,000 is
egregious and would warrant involvement of the first-line manager, overstated deductions can be
equally egregious and would often warrant the same scrutiny by the first-line manager to better
ensure that fraud indicators are adequately considered and investigated. For instance, our review
found that 22 of the 26 exception audits20 in our sample had adjustments solely due to overstated
deductions. Since these 22 audits only involved overstated deductions, the examiner would no
longer be required to discuss with his/her first-line manager the potential fraudulent activity of
the taxpayer relating to those overstated deductions that ranged from approximately $33,000 to
$288,000 and resulted in additional tax assessments of about $10,000 to $70,000 per audit.21
This finding, combined with the NQRS staff’s finding that overstated deductions were not
always considered for potential fraud during office audits, indicates that the requirements for
discussing the potential fraudulent activity of the taxpayer with a first-line manager could be
enhanced. Specifically, the outcome of the managerial reviews and decisions to pursue and
investigate civil fraud may have been different had the examiners held discussions with their
first-line manager about the potential of fraudulent activity of the taxpayer relating to the
understated income and/or overstated deductions that met specific criteria and/or a minimum
dollar threshold. During this audit, we also met with IRS Criminal Investigation officials, who
agreed that overstated deductions can be equally egregious as omissions of income and result in
a tax loss to the Government.

Recommendations
The Director, Exam Policy, SB/SE Division, should:
Recommendation 1: Standardize the process for office audit examiners’ documentation of
fraud consideration by developing and implementing a specific job aid that requires examiners to
acknowledge which indicators, if any, were considered during the audit.
         Management’s Response: IRS management partially agreed with this
         recommendation. Specifically, IRS management will review the IRM and lead sheets
         205, Fraud Development Lead Sheet, and 300, Civil Penalty Approval form, and make
         necessary revisions to standardize the process for office audit examiners’ documentation
         of fraud consideration.



20
   The remaining four of the 26 audits had understated income by at least $10,000, which would have required a
discussion with the first-line manager. We did not find evidence in the audit case file to support that a discussion
was held between the examiner and the first-line manager.
21
   For the 22 audits, the total additional tax assessment was approximately $497,000.
                                                                                                              Page 11
                              Actions Can Be Taken to Reinforce the
                            Importance of Recognizing and Investigating
                               Fraud Indicators During Office Audits



       Office of Audit Comment: We considered the planned corrective action and
       concluded that it is responsive to our recommendation. However, we encourage IRS
       management to ensure that the revisions they decide to make to standardize the process
       for office audit examiners’ documentation of fraud consideration include a requirement
       that examiners specifically acknowledge which indicators, if any, were considered during
       the audit.
Recommendation 2: Develop additional criteria and guidance for when a discussion should
be held between the examiner and first-line manager about the potential fraudulent activity of the
taxpayer to cover instances other than omissions of income.
       Management’s Response: IRS management partially agreed with the
       recommendation. Specifically, IRS management will provide additional guidance
       emphasizing when a discussion should be held between the examiner and first-line
       manager about potential fraudulent activity of the taxpayer by issuing a memorandum to
       compliance employees highlighting fraud awareness, responsibilities, and proper
       involvement of managers and FTAs. However, IRS management does not believe it is
       appropriate to provide additional specific criteria for when a discussion must be held
       between the examiner and first-line manager.
       Office of Audit Comment: TIGTA believes that the planned corrective action is not
       adequate because it does not address the additional criteria that we recommended. As
       such, it is unlikely that the IRS’s corrective action will be effective.
       As noted in the report, the IRS Criminal Investigation officials we spoke with agreed that
       overstated deductions can be equally egregious as omissions of income and result in the
       same tax loss to the Government. In addition, IRS management agreed with our
       conclusions that fraud was not adequately considered and investigated in all 26 of our
       exception audits, of which 22 involved only overstated deductions. Further, as noted in
       their response, IRS management agreed that the recommendations have the potential to
       increase revenue by an estimated $5.8 million a year ($29 million over five years).
       Therefore, TIGTA continues to believe the IRS should expand the requirement for
       examiners and first-line managers to discuss potential fraudulent behavior beyond
       unreported income.




                                                                                          Page 12
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether fraud is recognized and pursued during
office audits1 of individual tax returns in accordance with IRS procedures and guidelines.
To accomplish this objective, we:
I.       Evaluated the adequacy of controls for ensuring fraud penalties are adequately considered
         and applied during office audits.
         A. Documented the applicable Internal Revenue Code sections, Treasury Regulations,
            IRM sections, management directives, examiner training materials, and IRS public
            announcements and notices that provide the authority and reasons for assessing the
            penalty.
         B. Interviewed IRS officials to obtain an understanding of all policies, procedures, and
            techniques (management controls).
         C. Obtained quality review results related to fraud consideration in office audits from the
            NQRS and the Embedded Quality Review System to determine any areas identified
            for improvement and the actions taken by management to address weaknesses in the
            areas identified.
II.      Determined whether examiners followed procedures and guidelines during consideration
         of the civil fraud penalty and the potential tax effect of noncompliance.
         A. Obtained an extract from the Audit Information Management System of office audits
            closed by office examiners (Employee Group Codes 2000 through 2999) between
            October 1, 2009, and September 30, 2010, for sole proprietor Form 10402 returns
            (Activity Codes 274 through 277) and high-income taxpayers (total positive income3
            over $200,000) (Activity Codes 279 through 281) that had an agreed assessment
            equal to or greater than $10,000. From this extract, only those records with a Fraud
            Condition Indicator Code of 00 or blank were selected. Any records for which the
            civil fraud penalty was applied were removed from the population. This was
            performed by matching the remaining records against the Individual Master File and
            eliminating any records with a dollar amount in Transaction Code 320 (Fraud

1
  See Appendix VII for a glossary of terms.
2
  Form 1040, U.S. Individual Income Tax Return.
3
  Total positive income is sum of the total positive values from the following income fields (losses are treated as a
zero): wages, interest, dividends, other income, distributions, Schedule–C Net Profits, and Schedule–F Net Profits.
                                                                                                             Page 13
                                      Actions Can Be Taken to Reinforce the
                                    Importance of Recognizing and Investigating
                                       Fraud Indicators During Office Audits



                Penalty) and Transaction Code 240 with Penalty Reference Number 686 (Accuracy-
                Related Penalty for Fraudulent Failure to File).
           B. Validated the data by comparing the data to the Integrated Data Retrieval System and
              the IRS’s Statistics of Income Table 37, which proved the data were sufficiently
              reliable for the purposes of this report.
           C. Stratified the population of office audits identified in Step II.A into three strata based
              on the amount of additional tax assessed. See Figure 1 of Appendix IV for details
              regarding each of the three stratums. We then selected a statistical sample of 100
              closed office audits using a 95 percent confidence level, ±10.19 percent precision
              rate, and 50 percent occurrence rate as discussed with TIGTA’s contracted
              independent statistician. A statistical sample was taken because we wanted to
              estimate the number of audits and amount of dollars associated with not properly
              considering the fraud penalty for a population of 3,674 office audits. We shared our
              sampling and outcome measure methodologies with an outside statistical expert who
              confirmed the accuracy of our methodology and projection.
           D. Determined whether examiners are complying with the procedures and guidelines
              required for considering the fraud penalty.
           E. Assessed whether examiners adequately considered the fraud penalty during office
              audits and whether there may be opportunities to enhance revenue. For revenue
              enhancements, we calculated the potential penalty amount by multiplying the
              75 percent civil fraud penalty rate by the agreed assessment amount and subtracting
              any amounts previously assessed for accuracy-related penalties.
III.       Assessed the emphasis placed on recognizing, considering, and developing fraud in the
           performance feedback provided to examiners and first-line managers.
           A. Summarized the performance feedback given to a judgmental sample4 of
              20 examiners included in our audit reviews during FY 2009 through December 2011
              by extracting the requisite information recorded in the Embedded Quality Review
              System attribute dealing with recognizing, considering, and developing fraud
              (i.e., Attribute 407). We used judgmental sampling to select the examiners because
              we did not plan to project our results.
           B. Reviewed the FY 2009 through December 2011 midyear and annual appraisals and
              summarized feedback related to recognizing, considering, and developing fraud that
              was given to the judgmental sample of 20 examiners identified in Step III.A.
           C. Identified the first-line manager for each of the 20 examiners identified in Step III.A
              and evaluated the FY 2009 through December 2011 performance expectations for the

4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 14
                              Actions Can Be Taken to Reinforce the
                            Importance of Recognizing and Investigating
                               Fraud Indicators During Office Audits



           first-line managers to determine if there were any commitments or expectations
           relating to asserting the fraud penalty. We used judgmental sampling to select the
           first-line managers because we did not plan to project our results.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
determining whether examiners are recognizing and pursuing fraud indicators during office
audits. We evaluated these controls by reviewing source materials, interviewing management,
and reviewing a statistical sample of 100 examined closed office audits.




                                                                                           Page 15
                            Actions Can Be Taken to Reinforce the
                          Importance of Recognizing and Investigating
                             Fraud Indicators During Office Audits



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Michelle Philpott, Acting Director
Alberto Garza, Acting Audit Manager
Tina Fitzsimmons, Lead Auditor
Malissa Livingston, Lead Auditor
Donna Saranchak, Lead Auditor
Jean Kao, Senior Auditor
Levi Dickson, Auditor




                                                                                    Page 16
                            Actions Can Be Taken to Reinforce the
                          Importance of Recognizing and Investigating
                             Fraud Indicators During Office Audits



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 17
                                  Actions Can Be Taken to Reinforce the
                                Importance of Recognizing and Investigating
                                   Fraud Indicators During Office Audits



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $5.8 million from additional penalties assessed for 939 office
    audits;1 $29 million over five years (see page 8).
    Our calculation assumes that the civil fraud penalty would have been recommended,
    assessed, and sustained upon any taxpayer appeal, on the entire amount of additional taxes
    owed for 56 percent of the office audits that we determined were exceptions if the examiners
    adequately considered and investigated the potential fraudulent activity of the taxpayer
    during the audit.
    We limited our penalty calculation to 56 percent of the audits based on analyzing readily
    available IRS data that suggest more than half2 of the office audits placed in fraud
    development status result in a civil fraud penalty recommendation. Specifically, IRS data
    showed that in FYs 2008 through 2011, an average of 172 taxpayer accounts were placed
    into fraud development status (Forms 11661, Fraud Development Recommendation –
    Examination, were completed) annually during office audits in the SB/SE Division. IRS data
    also showed that in FYs 2008 through 2011 a civil fraud penalty was recommended for an
    average of 96 taxpayers annually during SB/SE Division office audits. Therefore, we
    calculated the 56 percent by dividing the 96 taxpayers for whom a civil fraud penalty was
    recommended by the 172 taxpayers who had accounts placed into fraud development status
    [96 / 172 = 56 percent].
    Additionally, this calculation is net of any accuracy-related penalties that were previously
    assessed during the office audits. Further, the value of the outcome measure does not include



1
  See Appendix VII for a glossary of terms.
2
  The approximate percentage was calculated by taking the number of civil fraud penalty recommendations and
dividing by the number of Forms 11661 completed over the four-year period. We did not analyze the data to
determine whether the civil fraud penalty was recommended within the same year that the taxpayer account was
placed into fraud development status. Therefore, the approximate percentage for the four-year period may differ as
it may include completion of a Form 11661 in a different year than when the civil fraud penalty was recommended.
A four-year average is provided to account for the potential overlap between fiscal years.
                                                                                                          Page 18
                                  Actions Can Be Taken to Reinforce the
                                Importance of Recognizing and Investigating
                                   Fraud Indicators During Office Audits



    amounts (revenue) that would partially offset this benefit as a result of directing examination
    resources away from other taxpayer returns in order to pursue the civil fraud penalty cases.

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with the difference between the number
of civil fraud penalties assessed and the number that should be assessed in sole proprietor and
high-income taxpayer office audits, we reviewed a statistically valid stratified sample, as shown
in Figure 1, of 100 office audits from a population of 3,674 office audits of sole proprietors and
high-income taxpayers that were closed between October 1, 2009, and September 30, 2010, with
an agreed assessment equal to or greater than $10,000.
                                Figure 1: Statistical Sampling Data

                                                                            Universe Size        Sample Size
                                Strata                                      per Stratum          per Stratum

Stratum 1: Tax assessment of $250,000 or greater                                      2                 2
Stratum 2: Tax assessment between $50,000 and $249,999                               93                11
Stratum 3: Tax assessment between $10,000 and $49,999                             3,579                87
                                                                 Totals           3,674               100
Source: TIGTA analysis of: 1) an extract from the Audit Information Management System of office audits closed
between October 2009 and September 2010 for sole proprietor and high-income taxpayers with an agreed
assessment equal to or greater than $10,000 and for which fraud penalties were not applied and 2) TIGTA’s
sampling plan.

   Calculated the weighted average error rate for our sample, which was required due to our
    stratified sampling methodology.
    o Prior to determining our overall weighted average error rate for our sample, we first had
      to determine the weight of each stratum in our universe. To do so, we divided the
      number of office audits in each stratum by the total office audits in the universe, as
      shown in Figure 2.




                                                                                                       Page 19
                                    Actions Can Be Taken to Reinforce the
                                  Importance of Recognizing and Investigating
                                     Fraud Indicators During Office Audits



                                 Figure 2: Weight of Strata in Universe

                                                                               Weight of Each Stratum in
                                                            Universe Size      Universe (Stratum Universe
                           Strata                           per Stratum        Size / Total Universe Size)3

Stratum 1: Tax assessment of $250,000 or greater                      2                      0.06%
Stratum 2: Tax assessment between $50,000 and $249,999              93                       2.53%
Stratum 3: Tax assessment between $10,000 and $49,999            3,579                      97.41%
                                                   Totals        3,674                     100.00%
Source: TIGTA analysis of an extract from the Audit Information Management System of office audits closed
between October 2009 and September 2010 for sole proprietor and high-income taxpayers with an agreed
assessment equal to or greater than $10,000 and for which fraud penalties were not applied.

      o Next, we calculated the error rate per stratum, as shown in Figure 3, by dividing the
        number of errors in each stratum by the sample size for each stratum and multiplying by
        100.
                                    Figure 3: Error Rate per Stratum

                                                                 Number
                                                                 of Errors
                                                                    per         Sample Size      Error Rate
                               Strata                            Stratum        per Stratum      per Stratum

Stratum 1: Tax assessment of $250,000 or greater                      0               2               0.00%
Stratum 2: Tax assessment between $50,000 and $249,999                4               11             36.36%
Stratum 3: Tax assessment between $10,000 and $49,999                22               87             25.29%
                                                       Totals        26              100
Source: TIGTA sampling plan and audit file analysis.

      o We then calculated the weighted average error rate for our sample, as shown in Figure 4,
        by multiplying the error rate for each stratum by the percentage of each respective
        stratum represented in our universe (i.e., “Weight of Stratum in Universe”) and summing
        the results.




3
    Percentages are rounded.
                                                                                                       Page 20
                                     Actions Can Be Taken to Reinforce the
                                   Importance of Recognizing and Investigating
                                      Fraud Indicators During Office Audits



         Figure 4: Weighted Average Error Rate Calculation for Stratified Sample

                                                                                   Weight
                                                               Error Rate          of Each          Weight of
                                                                  per              Stratum         Error Rate
                            Strata                              Stratum          in Universe       per Stratum

Stratum 1: Tax assessment of $250,000 or greater                   0.00%              0.06%              0.00%
Stratum 2: Tax assessment between $50,000 and $249,999            36.36%              2.53%              0.92%
Stratum 3: Tax assessment between $10,000 and $49,999             25.29%             97.41%             24.63%
                                                   Weighted Average Error Rate for Sample              25.55%
Source: TIGTA analysis of: 1) an extract from the Audit Information Management System of office audits closed
between October 2009 and September 2010 for sole proprietor and high-income taxpayers with an agreed
assessment equal to or greater than $10,000 and for which fraud penalties were not applied and 2) results of audit
file testing.

      Based on our sample error rate of 25.55 percent and a confidence level of 95 percent
       (±8.87 percent precision), we calculated the number of office audits where fraud was not
       adequately recognized and pursued to be approximately 939 audits (3,674 x 25.55 percent),
       with a range of 613 to 1,265.
      To estimate the potential amount of additional civil fraud penalties that may have been
       assessed for these 26 office audits, we computed the additional penalty assessment by
       multiplying the agreed assessment for each audit by the 75 percent civil fraud penalty rate
       and subtracting any amounts previously assessed for accuracy-related penalties. Based on
       this analysis, we estimated that, had potential fraud been adequately considered and
       investigated for these 26 office audits, approximately $362,000 in additional penalties could
       have been assessed.4
       o However, as discussed previously, our analysis of available data suggests that there is a
         56 percent probability a civil fraud penalty will be recommended when a Form 11661 is
         completed. Based on this probability, we reduced the above amount by 44 percent, from
         approximately $362,000 to $203,000.




4
    Amounts are rounded to the nearest dollar.
                                                                                                          Page 21
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



   To determine the total amount of potential additional penalties owed for the office audits in
    our universe that may have avoided a civil fraud penalty that otherwise should have been
    assessed:
    o We calculated the weighted average additional penalties for all 100 office audits in our
      sample. To calculate the weighted average additional penalties, we calculated the
      average additional penalties for each stratum and then multiplied it by the weight of the
      stratum in our universe. We summed the results for each stratum to arrive at the
      weighted average additional penalties for our sample. See Figure 5 for details of our
      calculation.
                  Figure 5: Weighted Average Penalty Dollar Calculation5

                                                                   Average           Weight           Weight of
                                                                  Additional         of Each          Additional
                                                                  Penalties6         Stratum          Penalties7
                           Strata                                per Stratum       in Universe       per Stratum

Stratum 1: Tax assessment of $250,000 or greater                         $0            0.06%                 $0
Stratum 2: Tax assessment between $50,000 and $249,999              $12,356            2.53%               $313
Stratum 3: Tax assessment between $10,000 and $49,999                $2,595           97.41%              $2,528
                                            Weighted Average Additional Penalties for Sample              $2,841
Source: TIGTA analysis of: 1) an extract from the Audit Information Management System of office audits closed
between October 2009 and September 2010 for sole proprietor and high-income taxpayers with an agreed
assessment equal to or greater than $10,000 and for which fraud penalties were not applied and 2) results of audit
file testing.

    o We then multiplied the number of office audits in the universe by the weighted average
      additional penalties for our sample office audits (3,674 x $2,841 = $10.4 million). The
      $10.4 million represents the point estimate for the total potential additional penalties for a
      one-year period. Based on a 95 percent confidence interval, the total potential additional
      penalties range from approximately $6.7 million to $14.2 million.
            However, as discussed previously, our analysis of available data suggests that there is
             a 56 percent probability that a civil fraud penalty will be recommended when a
             Form 11661 is completed. Based on this probability, we reduced the above additional
             penalty amount of $10.4 million by 44 percent. Therefore, we estimate that sole
             proprietors and high-income taxpayers in our universe may have avoided additional


5
  Amounts in Figure 5 are calculated using the estimate for $362,000 in additional penalty assessments.
6
  Amounts are rounded to the nearest dollar.
7
  Amounts are rounded to the nearest dollar.
                                                                                                           Page 22
                                    Actions Can Be Taken to Reinforce the
                                  Importance of Recognizing and Investigating
                                     Fraud Indicators During Office Audits



             penalties totaling about $5.8 million.8 This adjustment is not based on our sampling
             and does not have a confidence interval. Our calculation assumes that for 56 percent
             of the office audits that we determined were exceptions, the civil fraud penalty would
             have been recommended, assessed, and sustained upon taxpayer appeal, on the entire
             amount of additional taxes owed had the examiners adequately considered and
             investigated the potential fraudulent activity of the taxpayer during the audit.
   To calculate the potential amount of additional penalties owed by sole proprietors and
    high-income taxpayers in our universe that we estimate may have avoided a civil fraud
    penalty that otherwise should have been assessed over five years if the IRS does not change
    its procedures, we multiplied the estimated total amount of additional penalties owed for the
    office audits closed between October 2009 and September 2010 by five to obtain the amount
    of taxes [$5,800,000 x five = $29,000,000]. Our calculation assumes that all estimated
    penalties would be owed based upon the development of fraud and that conditions such as
    economic factors, tax law, compliance rates, and IRS audit coverage remain the same.
We shared our sampling and outcome measure methodologies with an outside statistical expert
who confirmed the accuracy of our methodology and projection.




8
 We are unable to quantify the degree of uncertainty associated with the estimated $5.8 million in additional
assessments because of the variability in the dollars assessed for the population of exception audits and the
uncertainty as to which of the individual exception audits could have resulted in a civil fraud penalty assessment.
                                                                                                             Page 23
                                 Actions Can Be Taken to Reinforce the
                               Importance of Recognizing and Investigating
                                  Fraud Indicators During Office Audits



                                                                                Appendix V

                               Fraud Checklist (2010) 1

                                     Fraud Indicators—Income

          Omissions of specific items where similar items are included.
          Omissions of entire sources of income.
          Unexplained failure to report substantial amounts of income.
          Unexplained sources substantially exceeding reported income.
          Substantial excess of personal expenditures over available resources.
            Material acquisitions suggest living beyond reported income.
          Bank deposits substantially exceed reported income.
          Checks cashed that never hit taxpayer’s bank accounts.
          Concealment of bank accounts, brokerage accounts, and other property.
          Inadequate explanation for dealing in large sums of currency.
          Consistent concealment of unexplained currency, especially in a business not
           calling for large amounts of cash.
          Failure to deposit receipts to business account.
          Failure to file a return, especially for a period of several years, although
           substantial amounts of taxable income were received.
          Cashing checks at check-cashing services and banks other than taxpayer’s
           banks.
          Covering up sources of receipts by false description of source of disclosed
           income or nontaxable receipts.
          Loan applications that state a higher income than shown on the returns.
          Other indicator                                                              .

                            Fraud Indicators—Allocations of Income

          Distribution of profits to fictitious partners.
          Inclusion of income or deductions on return of a related taxpayer.
          Other indicator                                                               .




1
    Source: SB/SE Fraud/BSA Function Management.
                                                                                     Page 24
                        Actions Can Be Taken to Reinforce the
                      Importance of Recognizing and Investigating
                         Fraud Indicators During Office Audits



                        Fraud Indicators—Deductions

   Substantial overstatement of deductions.
   Substantial amounts of personal expenditures deducted as business expenses.
   Claiming fictitious deductions.
   Multiple deductions end in zeroes or amounts overuse a particular digit.
   Dependency exemption claimed for nonexistent, deceased, or self-supporting
    people.
   Loans of trust funds disguised as purchases or deductions.
   Other indicator                                                            .

                     Fraud Indicators—Books & Records

   Keeping two sets of books or no books.
   False entries or alterations made on books and records, backdated or
    post-dated documents, and false invoices, applications, statements, or other
    documents.
   Invoices are irregularly numbered, unnumbered, or altered.
   Checks made payable to third parties are endorsed back to taxpayer.
   Failure to keep adequate records, concealment of records, or refusal to make
    certain records available.
   Variances between amounts or inconsistent treatment of questionable items on
    return and in books.
   Intentional under-footing or over-footing of columns in journal or ledger.
   Amounts posted to ledger accounts not in agreement with source books.
   Recording income items in suspense or asset accounts.
   False receipts to donors by exempt organizations.
   Other indicator                                                              .

                   Fraud Indicators—Conduct of Taxpayer

   False statement about a material fact during examination.
   Attempts to hinder examination (e.g., failure to cooperate or answer pertinent
    questions, repeated cancellation of appointments, refusal to provide records,
    threatening or assaulting potential witnesses or the agent).
   Failure to follow advice of accountant or attorney.
   Failure to make full disclosure of relevant facts to accountant or return preparer.
   Taxpayer’s knowledge of taxes and business practices.
   Testimony of employees concerning irregular business practices by taxpayer.
   Destruction of books and records.

                                                                                Page 25
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



           Transfer of assets for purposes of concealment or diversion of funds and assets.
           Consistent failure over several years to fully report income.
           Return incorrect to such an extent and in respect to items to compel conclusion
            that falsity was known and deliberate.
           Payment of improper expenses by or for officials or trustees.
           Willful and intentional failure to execute pension plan amendments.
           Backdating of applications and related documents.
           Conduct or transactions contrary to normal business practices
           Use of false Social Security Numbers.
           Submission of false forms (e.g., Forms W-22 or W-43).
           Submitting false affidavits or documents.
           Attempts to bribe the agent.
           Other indicator                                                               .

                           Fraud Indicators—Methods of Concealment

           Insolvency of transferor.
           Assets placed in another’s name.
           Transfer of all or nearly all of taxpayer’s property.
           Close relationship between parties to transfer of property.
           Transfer made in anticipation of tax assessment or after examination began.
           Reserves or retains an interest in the property transferred.
           Transaction not in the usual course of business.
           Transaction surrounded by secrecy.
           False entries in books of transferor or transferee.
           Unusual/de minimis consideration received for the property.
           Use of secret bank accounts or accounts in nominee names.
           Conduct business transactions in false names.
           Other indicator                                                             .

                               Fraud Penalties—Additional Considerations

           Workpapers should be indexed, and should include an accurate record of
            contacts and conversations and an explanation of evidence to support fraud.
           Recognized and consistent method of determining underpayment of tax
            (e.g., specific items, bank deposits, or net worth).
           Files should include all source documents, including bank records.

2
    Form W-2, Wage and Tax Statement.
3
    Form W-4, Employee’s Withholding Allowance Certificate.
                                                                                    Page 26
                        Actions Can Be Taken to Reinforce the
                      Importance of Recognizing and Investigating
                         Fraud Indicators During Office Audits



   Affidavits and statements/letters from witnesses should be included in file.
   Pattern of years of under-reporting income or inflating expenses.
   The indicia necessary to support fraudulent conduct may be based on the
    amount of deficiency; the smaller the deficiency, the greater need for strong,
    overt badges of fraudulent conduct.
   Multiple badges exist apart from frivolous arguments or noncooperation.
   Allegations show taxable source of unreported income or negate that income
    came from a nontaxable source.
   If joint return, either intent separately established for each spouse or fraud
    asserted on one spouse only. Section (§) 6663(c).
   Taxpayer and third-party interviews conducted, especially of preparer.
     Who prepared the information used on return?
     Who approved and classified expense items?
     Who deposited business receipts?
     How were business gross receipts stated on return determined?
     Who controlled the accounts (signature authority)?
   Taxpayer’s explanation obtained.
     Off-setting cash expenses that were not deducted.
     Nontaxable source of income.
     Reasonable, good-faith reliance on advisor, who caused noncompliance.
     No unreasonable assumptions. § 1.6664-4(c)(1)(ii).
   If period of limitations open, accuracy-related penalty for negligence or
    substantial understatement imposed in the alternative. § 6662(a).
   Period of limitations also held open by fraudulent intent of third party
    (e.g., preparer). Allen, 128 T.C.37, 42 (2007).
   Protect period of limitations if open; exception or additional period may apply
    under § 6501 (e.g., six years for substantial omission under § 6501(e)).
   Respondent has the burden of proving by clear and convincing evidence that
    some part of the underpayment of tax was due to civil fraud. T.C. Rule 142(b).
   All fraud Notices of Deficiency should be coordinated with the Fraud Technical
    Advisor (“FTA”) prior to being sent to Counsel.
   If Counsel has doubt about whether to approve, ask agent to explain position.
   If not approved and further development required, Counsel must recommend
    that agent coordinate with FTA. SB-2009-04.
   Counsel should copy FTA manager whenever written advice provided to Exam,
    regardless of whether you are approving the fraud. SB-2009-04.
   If CI recommended criminal prosecution and civil fraud or fraudulent failure to
    file penalty is not approved, Area Counsel must provide written advice.
    IRM 25.1.7.8(7).
   Other indicator                                                                 ..


                                                                               Page 27
                                   Actions Can Be Taken to Reinforce the
                                 Importance of Recognizing and Investigating
                                    Fraud Indicators During Office Audits



               Additional Indicators for Fraudulent Failure to File—§ 6651(f)

         History of nonfiling.
         History of criminal tax prosecutions.
         Repeated contacts by the IRS.
         Indications that the nonfiler had knowledge of filing requirements
          (e.g., advanced education, works directly in tax field, or previously filed).
         Experienced in tax matters (e.g., law professor, CPA, or tax attorney).
         Attempted to conceal or transfer assets to evade collection of tax later
          assessed.
         Furnished false W-4 to employer.
         The use of dummy business entities or bank accounts under assumed names,
          or false SSNs in an attempt to conceal the identity of true owner or income
          earner.
         Submitted copies of nonfiled returns to third parties (e.g., lending institutions
          when taxpayer intends to secure loans).
         Large number of cash transactions.
         Indications of significant income (e.g., interest and dividends earned,
          investments in IRA accounts, stock and bond transactions, or mortgage interest
          paid).
         Substantial tax liability after withholding credits and estimated tax payments.
         Other indicator                                                                   .

                                                  Resources

         IRM 4.10.6--Penalty Considerations
         IRM 25.1--Fraud Handbook
         Fraud Office
         FTA program Counsel contacts, National Fraud Program--SB-2009-04




Abbreviations are used for the following terms in this fraud checklist: Tax Court (T.C.), Fraud Technical Advisor
(FTA), Criminal Investigation (CI), Certified Public Accountant (CPA), Social Security Number (SSN), and
Individual Retirement Arrangement (IRA).




                                                                                                          Page 28
                       Actions Can Be Taken to Reinforce the
                     Importance of Recognizing and Investigating
                        Fraud Indicators During Office Audits



                                                                                    Appendix VI

            Fraud Development Lead Sheet




Source: SB/SE Division Workpaper 205-1, dated March 2011.
Abbreviations are used for the following terms in this lead sheet: Internal Revenue Code (IRC)
and Audit Information Management System (AIMS).

                                                                                                 Page 29
  Actions Can Be Taken to Reinforce the
Importance of Recognizing and Investigating
   Fraud Indicators During Office Audits




                                              Page 30
                              Actions Can Be Taken to Reinforce the
                            Importance of Recognizing and Investigating
                               Fraud Indicators During Office Audits



                                                                                 Appendix VII

                                Glossary of Terms

Activity Codes – A code that identifies the type and condition of returns selected for audit.
Attributes – Concise statements of SB/SE Division’s expectations for quality audits. Attributes
are guidelines to assist examiners in fulfilling their professional responsibilities.
Audit Information Management System – A computer system used to control returns, input
assessments/adjustments to the Integrated Data Retrieval System, and provide management
reports.
Embedded Quality Review System – The Embedded Quality Review System allows field
managers to provide timely feedback to individual employees through performance reviews of
audits.
Enforcement Revenue Information System – A computer system that tracks enforcement
activity and enforcement revenue.
First-Line Manager – A group manager in the Examination function responsible for supervision
of IRS examiners.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Fraud/Bank Secrecy Act Function – Within the IRS, the SB/SE Division Fraud/BSA function
provides oversight and direction for fraud policy and operations Servicewide and examines for
compliance with BSA requirements.
Fraud Condition Indicator Code – A code that identifies for audited returns the following
conditions: no fraud, civil fraud, criminal fraud, both civil and criminal fraud, or blank.
Fraud Technical Advisor – An FTA is a specialized revenue agent who provides guidance to
other examiners who have identified fraud indicators. Among their various responsibilities, the
FTAs provide technical and procedural fraud advice to examiners to help identify and develop
potential civil fraud penalty cases and criminal fraud referrals. The FTAs are qualified to
provide such guidance because they are required to have specialized knowledge of the laws,
regulations, and procedures governing criminal and civil tax fraud cases as well as extensive
fraud development experience.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.

                                                                                           Page 31
                              Actions Can Be Taken to Reinforce the
                            Importance of Recognizing and Investigating
                               Fraud Indicators During Office Audits



Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
National Fraud Program Database – A computer system that is used by FTAs when there is a
taxpayer account placed into fraud development status or recommended for a fraud penalty.
National Quality Review System – The NQRS allows national reviewers to evaluate audit case
files to determine whether examiners complied with quality attributes established by the IRS.
Office Audit – An office audit is an audit of a tax return that is typically conducted by an office
examiner. An office examiner conducts audits of individual taxpayers through interviews at IRS
field offices.
Penalty Reference Number – Penalty reference numbers are used to assess and abate
miscellaneous civil penalties.
Territory Manager – Territory managers are responsible for planning, organizing, coordinating,
monitoring, and directing their respective programs through subordinate managers who are
geographically dispersed throughout the assigned territory.
Transaction Code – A three-digit code used to identify actions being taken on a taxpayer’s
account.




                                                                                           Page 32
           Actions Can Be Taken to Reinforce the
         Importance of Recognizing and Investigating
            Fraud Indicators During Office Audits



                                                Appendix VIII

Management’s Response to the Draft Report




                                                       Page 33
  Actions Can Be Taken to Reinforce the
Importance of Recognizing and Investigating
   Fraud Indicators During Office Audits




                                              Page 34
  Actions Can Be Taken to Reinforce the
Importance of Recognizing and Investigating
   Fraud Indicators During Office Audits




                                              Page 35
  Actions Can Be Taken to Reinforce the
Importance of Recognizing and Investigating
   Fraud Indicators During Office Audits




                                              Page 36
